Department of Homeland Security
   Ofﬁce of Inspector General


                Independent Review of the U.S. 

            Immigration and Customs Enforcement's 

                     Reporting of FY 2008 

                   Drug Control Obligations





OIG-09-19                                       January 2009
                                                                           Office of Inspector General

                                                                           U.S. Department of Homeland Security
                                                                           Washington, DC 20528




                                            January 30, 2009


                                                Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report presents the results of the review of the Table of Prior Year Drug Control Obligations
and related disclosures of the U.S. Immigration and Customs Enforcement for the fiscal year ended
September 30, 2008, for the Office of National Drug Control Policy. We contracted with the
independent public accounting firm KPMG LLP to perform the review. U.S. Immigration and
Customs Enforcement’s management prepared the Table of Prior Year Drug Control Obligations and
related disclosures to comply with the requirements of the Office of National Drug Control Policy
Circular, Drug Control Accounting, dated May 1, 2007. KPMG LLP is responsible for the attached
independent accountants’ report dated January 23, 2009, and the conclusions expressed in the report.
We do not express an opinion on the Table of Prior Year Drug Control Obligations and related
disclosures.

It is our hope that the information in this report will continue to result in effective, efficient, and
economical operations. We express our appreciation to all of those who contributed to the
preparation of this report.




                                                Richard L. Skinner 

                                                Inspector General 

                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                       Independent Accountants’ Report


Inspector General
U.S. Department of Homeland Security

We have reviewed the accompanying Table of Prior Year Drug Control Obligations and related disclosures
of the U.S. Department of Homeland Security’s (DHS) Immigration and Customs Enforcement (ICE) for
the year ended September 30, 2008. We have also reviewed the accompanying management’s assertions
for the year ended September 30, 2008. ICE’s management is responsible for the Table of Prior Year Drug
Control Obligations and related disclosures and the assertions.

Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Table of Prior Year Drug
Control Obligations and related disclosures and management’s assertions. Accordingly, we do not express
such an opinion.

Management of ICE prepared the Table of Prior Year Drug Control Obligations and related disclosures and
management’s assertions to comply with the requirements of the Office of National Drug Control Policy
(ONDCP) Circular, Drug Control Accounting, dated May 1, 2007.

Based on our review, nothing came to our attention that caused us to believe that (1) the Table of Prior
Year Drug Control Obligations and related disclosures for the year ended September 30, 2008 is not
presented, in all material respects, in conformity with ONDCP’s Circular, Drug Control Accounting (May
1, 2007), or that (2) management’s assertions referred to above are not fairly stated, in all material respects,
based on the criteria set forth in ONDCP’s Circular, Drug Control Accounting (May 1, 2007).

This report is intended solely for the information and use of the management of DHS and ICE, the
Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




January 23, 2009




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
                             Department of Homeland Security

                        U.S. Immigration and Customs Enforcement 

                Detailed Accounting of Drug Control Funds during FY 2008 



   A. Table of Prior Year Drug Control Obligations

                                                                (in Millions)
                                                                FY 2008 Final
               Drug Resources by Budget Decision Unit and Function:
                Salaries and Expenses
                  Intelligence: Domestic Law Enforcement   $        3.921
                  Intelligence: International              $        0.484
                  International                            $        4.568
                  Investigations                           $     388.933
               Total, Salaries and Expenses                $     397.906

               Total Funding                                     $     397.906
               HIDTA Transfer                                    $        1.540

Disclosure No. 1: Drug Methodology

U.S. Immigration and Customs Enforcement (ICE) is a multi-mission bureau, and obligations are
reported pursuant to an approved drug methodology. Separate calculations are made for the
three ICE programs which undertake drug-related investigative activity: Office of Investigations,
International Affairs and the Office of Intelligence.

Investigations Program

�	 The methodology for the Office of Investigations is based on investigative case hours
   recorded in ICE’s automated Case Management System. ICE officers record the type of
   work they perform in this system. Following the close of the fiscal year, a report is run
   showing investigative case hours that are coded as general narcotics cases and money
   laundering narcotics cases. A second report is run showing all investigative case hours
   logged. A percentage is derived by dividing the number of investigative case hours linked to
   drug control activities by the total number of investigative case hours. Applying the
   percentage to total of direct resources results in a cost allocated to drug cases. This
   percentage may fluctuate from year to year. For FY 2008 the percentage was 27.5%. To
   calculate a dollar amount, this percentage is applied to actual obligations incurred by the
   Office of Investigations (OI) against budget authority gained in FY 2008, excluding
   reimbursable authority.
                                              -2­


Intelligence Program

�	 ICE employs the same methodology as Investigations for calculating all drug control
   activities within the Office of Intelligence’s budget. For FY 2008, 9.4% of the total case
   hours for Intelligence were found to be in support of drug control activities through an
   examination of data recorded in the Case Management System. This percentage was applied
   to actual obligations against budget authority gained in FY 2008 incurred by the Office of
   Intelligence for all activities.

�	 The Intelligence Requirement Intake System – IRIS tracks request for intelligence work by
   customer. Requests made by the Office of International Affairs are classified as inherently
   international and all other customers are classified as inherently domestic. In FY 2008, 11%
   of IRIS requests were international in nature.

International Affairs Program

�	 The methodology for the Office of International Affairs (OIA) is also based on investigative
   hours recorded in ICE’s automated Case Management System which are represented as full
   time equivalent (FTE) agents. For FY 2008, 4.4% was applied to actual obligations against
   budget authority gained in FY 2008 incurred by the Office of International Affairs for all
   activities. This percentage represents the relationship of FTE agents with the number of
   overseas agents.

Disclosure No. 2: Methodology Modifications

As requested by the Office of National Drug Control Policy, the FY 2008 Table of Prior Year
Drug Control Obligations sub-divided Intelligence activity between domestic and international
work. The new methodology adds an additional step to the FY 2007 methodology and is
discussed above. In comparing the FY 2008 methodology against the FY 2007 methodology,
there is no quantitative difference in the total amount reported for the Office of Intelligence or
ICE.

Disclosure No. 3: Material Weaknesses or Other Findings

In FY 2008, there were no known material weaknesses or other findings by independent sources
which might affect the presentation of the Immigration and Customs Enforcement’s prior year
drug-related obligations data.

Disclosure No. 4: Reprogrammings or Transfers

No Reprogrammings or Transfers of drug-related budget resources occurred during FY 2008.

Disclosure No. 5: Other Disclosures
In previous submissions, the Office of International Affairs’ drug-related obligations and
program requests were included as part of the Office of Investigations’ request. In FY 2007,
there was an organizational change that established OIA as a stand-alone office within ICE. All
submissions beginning with FY 2007 reflect this change.
                                             -3­



There are no other disclosures, which we feel are necessary to clarify any issues regarding the
data reported.

B. Assertions

Assertion No. 1: Obligations by Budget Decision Unit

Not Applicable- noted in the ONDCP Circular: Drug Control Accounting 6 (b) (1).

Assertion No. 2: Drug Methodology

The methodology used to calculate obligations of prior year budgetary resources by budget
decision unit and function is reasonable and accurate in regard to the workload data employed
and the estimation methods used. The workload data is derived from the TECS and IRIS systems
discussed in the methodology section above and based on work performed between October 1,
2007 and September 30, 2008. There are no other estimation methods used. The financial
system used to calculate the drug-related budget obligations is the Federal Financial
Management System (FFMS) which is capable of yielding data that fairly presents, in all
material respects, aggregate obligations.

Assertion No. 3 Application of Drug Methodology

The methodology disclosed in section A, Disclosure No. 1 was the actual methodology used to
generate the table.

Assertion No. 4: Reprogrammings or Transfers

No Reprogrammings or Transfers of drug-related budget resources occurred during FY 2008.

Assertion No. 5: Fund Control Notices

No Fund Control Notice was issued by the ONDCP Director under 21 U.S.C. section 1703(f) to
ICE in FY 2008. The data presented are associated with obligations against a financial plan that
was sent to ONDCP in FY 2008.
Report Distribution



   Department of Homeland Security

      Secretary

      Deputy Secretary

      Chief of Staff 

      Deputy Chief of Staff 

      General Counsel 

      Executive Secretary 

      Director, GAO/OIG Liaison Office

      Assistant Secretary for Policy 

      Assistant Secretary for Public Affairs 

      Assistant Secretary for Legislative Affairs 

      Under Secretary, Management 

      Chief Financial Officer 

      Deputy Chief Financial Officer 

      Acting Director Office of Financial Management 

      Chief Information Officer 

      Chief Security Officer

      Chief Privacy Officer


   Office of National Drug and Control Policy
      Associate Director for Planning and Budget

   Immigration and Customs Enforcement

      Acting Assistant Secretary
      Chief Financial Officer
      Chief Information Officer

   Office of Management and Budget

      Chief, Homeland Security Branch 

      DHS OIG Program Examiner 


   Congress

      Congressional Oversight and Appropriations Committees, as appropriate
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
